HHS/OIG-Audit--"Review of Emergency Assistance Payments Claimed by the Maryland Department of Human Resources Under Title IV of the Social Security Act, (A-03-93-00562)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Emergency Assistance Payments Claimed by the Maryland Department of Human Resources Under Title IV of
the Social Security Act," (A-03-93-00562)
March 9, 1994
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of our review of payments made by the Maryland Department of Human Resources
(DHR) under the Emergency Assistance to Needy Families With Dependent Children program (EAFC) for the period October 1,
1990 through September 30, 1992. During that period DHR made 54,883 EAFC payments totaling $10,729,942 and was reimbursed
$5,380,658 in Federal financial participation (FFP). Based on our review of 220 EAFC payments, 55 payments, or 25 percent,
were either not supported by a case file and/or a client application form, or were otherwise ineligible for FFP under the
EAFC program. Projecting these results to the $10,729,942 in EAFC payments made by DHR in FYs 1991 and 1992, we estimate
that payments of at least $1,237,687 were not adequately supported. The FFP in these unsupported payments totals $618,844.